HHS/OIG - Audit, Supplemental Employee Retirement Plan Costs Claimed by Transamerica Occidental Life Insurance Company, (A-07-02-03016)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Supplemental Employee Retirement Plan Costs Claimed by Transamerica
Occidental Life Insurance Company," (A-07-02-03016)
March 27, 2002
Complete
Text of Report is available in PDF format (685 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of our review was to determine
the allowability of $180,244 costs claimed for Medicare reimbursement by Transamerica
Occidental Life Insurance Company (TOLIC).  The $180,244 represents Supplemental
Employee Retirement Plan (SERP) costs that will be incurred subsequent to the
termination of TOLICs Medicare contract.  The review
showed that the claimed costs are unallowable for Medicare reimbursement and
we recommend that TOLIC withdraw the claim.  The TOLIC disagreed that the
SERP costs were unallowable.